           U.S. Department of Energy
           Office of Inspector General
           Office of Audits and Inspections




Inspection Report

Organizational Conflicts of Interest
Program at Sandia National
Laboratories




DOE/IG-0853                                   July 2011
                       8
                                  Department of Energy
                                    Washington, DC 20585
                                           July 13, 2011



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Inspection Report on "Organizational Conflicts of
                         Interest Program at Sandia National Laboratories"
BACKGROUND
The Department of Energy's Sandia National Laboratories (Sandia) is a multi-program national
security laboratory managed and operated under contract by Sandia Corporation, a subsidiary of
Lockheed Martin Corporation. As part of the Department's National Nuclear Security
Administration (NNSA), Sandia is designated as a Federally Funded Research and Development
Center (FFRDC). In performing its various research-related activities, Sandia has special access
to a wide variety of Government proprietary information.
Pursuant to Federal Acquisition Regulation 35.017, Federally Funded Research and
Development Centers, and other contractual provisions, Sandia is obligated to protect proprietary
data, act with independence and objectivity, and perform in a manner free from any
Organizational Conflicts of Interest (OCI). In that connection, NNSA officials requested
assistance in determining whether Sandia's OCI Program complied with relevant contractual
requirements. We initiated this inspection with that objective in mind.
RESULTS OF INSPECTION
Our inspection revealed a number of areas where Sandia could improve its OCI process to
prevent potential or actual organizational conflicts of interest. Although specifically required by
Federal Regulation and contractual provisions, Sandia had not completed a number of OCI-
related activities. In particular, Sandia had not:
       Conducted OCI reviews of all Technology Transfer License Agreements (License
        Agreements) between Sandia and its parent, Lockheed Martin, nor had it provided all
        License Agreements to NNSA for review and approval prior to the release of technology
        to Lockheed Martin;
       Ensured that OCI reviews were completed on Work for Others (WFO) projects that were
        initiated between Sandia and Lockheed prior to sending them to NNSA for review and
        approval;
       Performed adequate reviews on Cooperative Research and Development Agreements
        (CRADAs) with Lockheed to identify actual or potential OCI issues; and,
                                                2


       Notified NNSA or completed OCI reviews when subcontracts were initiated with
        Lockheed Martin, when Lockheed acquired Sandia subcontractors, or when the period
        of performance and dollar amount of a sole-source contract with Lockheed materially
        exceeded the original award.

We also found that Sandia personnel who worked directly with Lockheed on WFO projects and
CRADAs were not aware of the process for releasing information that may have been proprietary
to the parent corporation.

These weaknesses occurred, in part, because Sandia failed to provide adequate direction to staff
and management officials on the implementation of the OCI process in the areas of License
Agreements, WFO's, CRADAs and Release of Information to Lockheed Martin. Further, Sandia
had not provided all essential personnel with the necessary OCI training to assist them in
identifying and mitigating OCI issues or concerns when encountered. We also noted that no
specific performance measures related to Sandia's OCI Program had been established by NNSA.
Finally, we found that NNSA had not conducted periodic assessments of the OCI Program to
ensure that Sandia had satisfied its OCI responsibilities.

Because the required OCI reviews were not performed for the items we tested, we were unable,
and responsible Department/NNSA Federal officials could not discern, whether actual conflicts
of interest existed. Such OCI determinations would have enabled the Department to better
ensure that Lockheed Martin was not given an unfair competitive advantage and that proprietary
data and technology was appropriately protected.

A Sandia official told us that, as a result of our inspection, the Laboratory now understood that
OCI reviews should have been conducted on all License Agreements with its parent and that all
agreements should have been forwarded to NNSA for review and approval. This official
explained that Sandia had taken immediate steps to correct these weaknesses by initiating a new
internal procedure. In addition, NNSA Sandia Site Office officials indicated that, as a result of
our inspection, Sandia had taken the initiative to establish an internal process to ensure OCI
reviews are performed on WFO projects with Lockheed Martin. While these actions are
promising, additional effort is necessary. As such, we made a series of recommendations
designed to help ensure that the issues raised in our report are addressed. If properly
implemented, these steps should help improve the integrity of the OCI process at Sandia.

MANAGEMENT REACTION

NNSA management expressed its appreciation for the Office of Inspector General's (OIG) work
in this area in response to an NNSA request. Management also expressed general agreement
with the report and the recommendations. It indicated that Sandia had already initiated
improvement efforts in several areas to strengthen its OCI Program. NNSA management
identified a series of comprehensive actions it plans to take to ensure the integrity of Sandia's
OCI Program, to include specific actions it will direct Sandia to take. Management's planned
actions are responsive to our recommendations.
                                                3


NNSA provided comments on several specific issues which appeared to question the accuracy of
our report. At one point in its comments, NNSA asserted that five of the nine license/notices we
cited as not having been approved did not actually require approval. Yet, NNSA's subsequent
comments conceded that the items should have been reviewed by the Sandia Site Office to assess
whether there were any potential OCI issues. NNSA also indicated that evidence of the approval
of one agreement existed but was not furnished during the course of our review. We modified
the body of our report to reflect that the evidence in question was presented to us after the
completion of our inspection.

Although the Sandia Laboratory expressed general agreement with our overall conclusions and
recommendations, it noted, and NNSA agreed, that the report did not address all essential
elements of Sandia's OCI program. Sandia contended that this could lead to a misperception
regarding the program's overall effectiveness. In particular, management indicated that the
inspection report did not address Sandia's screenings of Lockheed Martin-related business
opportunities and other controls intended to reduce OCI related risks. In fact, our inspection
covered a significant portion of Sandia's OCI activities.

While our review focused on high risk licensing and technology transfer related issues, we
acknowledge that we did not evaluate and, thus, do not comment on Sandia's assertions
regarding the effectiveness of its actions to review Lockheed Martin business opportunities.

The comments provided by NNSA, to which comments from Sandia were appended, are
important factors in considering the issues raised in this inspection report. To ensure full
disclosure of our respective positions, portions of management comments and inspector
responses are discussed at relevant points in the body of the report. Overall management
comments and OIG responses are also briefly summarized in the report, with management's
complete comments included in Appendix 2.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Manager, Sandia Site Office
REPORT ON ORGANIZATIONAL CONFLICTS OF INTEREST PROGRAM
AT SANDIA NATIONAL LABORATORIES


TABLE OF
CONTENTS


Organizational Conflicts of Interest Program

Details of Finding ....................................................................................................................   1

Recommendations ....................................................................................................................      11

Management and Inspector Comments ....................................................................................                    12


Appendices

1. Objective, Scope and Methodology ...................................................................................                   14

2. Management Comments ....................................................................................................               16
ORGANIZATIONAL CONFLICTS OF INTEREST PROGRAM AT SANDIA
NATIONAL LABORATORIES

OCI PROCESS AND   Our inspection revealed a number of areas where Sandia National
PROCEDURES        Laboratories (Sandia) could improve its Organizational Conflicts
                  of Interest (OCI) process to help ensure that potential or actual
                  organizational conflicts of interest are identified. Although Sandia
                  was specifically required by Federal Regulation and contractual
                  provisions to operate "free from organizational conflict of
                  interest," we found that Sandia had not completed a number of
                  OCI-related activities. Specifically, we determined that
                  appropriate OCI reviews were not always conducted in the areas of
                  Technology Transfer License Agreements (License Agreements),
                  Work for Others (WFO) projects, Cooperative Research and
                  Development Agreements (CRADAs), and Contracts between
                  Sandia and Lockheed Martin Corporation (LMC). In addition,
                  License Agreements were not sent to the National Nuclear Security
                  Administration (NNSA) for review and approval prior to the
                  release of technology to LMC, and NNSA was not notified about
                  certain contractual actions involving Sandia and LMC.

Technology        Sandia had not conducted OCI reviews of all License Agreements
Transfers         between Sandia and LMC, nor had it sent all Agreements to NNSA
                  for review and approval prior to the release of technology to LMC.

                  We reviewed 10 License Agreements between Sandia and LMC.
                  These included four Commercial License Agreements, four
                  Government Use Notices, one Test and Evaluation Agreement, and
                  one Bailment Agreement. Each of these agreements allowed LMC
                  access to intellectual property, as follows:

                        Commercial License Agreement: This type of license
                         grants the licensee a royalty-free, world-wide, irrevocable,
                         nontransferable, nonexclusive right and license to use,
                         reproduce, create derivative works, and distribute Sandia
                         intellectual property.

                        Government Use Notice: This type of license authorizes
                         the licensee to use Sandia intellectual property for
                         Government purposes under the contract, but the
                         intellectual property is not to be released, distributed or
                         disclosed to the public. This agreement is entered into to
                         encourage scientific collaboration aimed at further
                         development and application of the intellectual property.

                        Test and Evaluation Agreement: This type of license
                         grants the licensee a nonexclusive, nontransferable license
                         to use Sandia intellectual property and associated
                         documentation for noncommercial purposes. Under this


Page 1                                                            Details of Finding
                agreement, the licensee desires to license Sandia
                intellectual property for testing and evaluation related to the
                determination as to the suitability of the intellectual
                property for commercial use by the licensee.

               Bailment Agreement: This type of license is an agreement
                in which Sandia permits the commercial or non-
                commercial transfer of custody, access or use of Sandia
                intellectual property for a specific purpose of technology
                transfer or research and development, including without
                limitation evaluation, and without transferring ownership to
                the licensee.

         Based on our evaluation of the 10 License Agreements selected for
         review, we found that 9 of those agreements did not contain
         evidence that such an OCI review had been completed. In
         discussions with Sandia officials regarding the lack of this review,
         they acknowledged that an OCI review had not been completed
         because they were not aware that one was required.

         In addition, during our inspection we found no evidence that any of
         the 10 License Agreements had been forwarded to NNSA for
         review and approval prior to the release of technology to LMC
         (Note: Subsequent to the release of a draft of this report, Sandia
         was able to identify a request for approval by the Contracting
         Officer for one of the 10 license agreements). In discussions with
         Sandia Licensing personnel regarding their process for initiation of
         a License Agreement with LMC, we were told that they were not
         clear on which License Agreements needed to be sent to NNSA for
         review and approval. Licensing personnel said that it was their
         understanding that only commercial License Agreements needed to
         be sent to NNSA. However, under its Prime Contract, Clause 85,
         DEAR 970.5227-3, Conflicts of Interest-Technology Transfer,
         Sandia is required to review technology transfer activities for
         conflicts of interest. In addition, Sandia is required to obtain the
         approval of the contracting officer for any licensing of, or
         assignment of title to Intellectual Property (Intellectual Property
         means patents, trademarks, copyrights, mask works, protected
         CRADA information, and other forms of comparable property
         rights protected by Federal Law).

         In comments to a draft of this report, NNSA took the position that
         the Government Use Notices and Test and Evaluation Licenses are
         not actually licenses, but are administrative in nature and do not
         require NNSA approval. However, NNSA agreed that the Sandia
         Site Office should review the license agreements with LMC, to



Page 2                                                    Details of Finding
                  include Government Use Notices and Test and Evaluation
                  Licenses, in order to assess these licenses for any potential OCI
                  issues. NNSA also stated that the Contract requires approval to
                  license technology, and thus, approval should have been obtained
                  for the remaining license agreements.

                  While we appreciate NNSA's agreement to review these licenses
                  for any potential OCI issue, we note that Sandia had already taken
                  actions to address this issue. During our inspection, a Sandia
                  official acknowledged that they now realized that an OCI review
                  should have been conducted on all License Agreements with LMC,
                  and that all agreements should have been forwarded to NNSA for
                  review and approval. This official attributed Sandia's failure to
                  meet these requirements on a lack of specific direction to the
                  licensing executives who process the LMC agreements. This
                  official also indicated that Sandia had taken immediate steps to
                  correct the weaknesses with License Agreements by initiating an
                  internal procedure for the licensing executives to follow when they
                  are processing such agreements with LMC. This procedure, titled
                  Sandia Program Procedure PPP-001, Agreements Process,
                  instructs licensing executives to conduct an OCI review on all
                  License Agreements with LMC and to forward all agreements with
                  LMC to the NNSA Contracting Officer for review and approval.

                  The Sandia official provided evidence that, as a result of our
                  inspection, two Test and Evaluation License Agreements had been
                  sent to NNSA for approval. As previously noted, Test and
                  Evaluation Agreements grant the licensee a nonexclusive,
                  nontransferable license to use Sandia intellectual property and
                  associated documentation for noncommercial purposes. We
                  believe that the submission of Test and Evaluation License
                  Agreements to NNSA for approval was consistent with DEAR
                  970.5227-3, Conflicts of Interest-Technology Transfer, since the
                  specific language of the approval request stated "In accordance
                  with our prime contract, Sandia Corporation requests the
                  DOE/NNSA/SSO Contracting Officer's approval for the enclosed
                  License Agreement . . . ."

Work for Others   Our inspection determined that Sandia had not ensured that OCI
                  reviews were completed on WFO projects that were initiated
                  between Sandia and LMC prior to sending them to NNSA for
                  review and approval. In particular, Sandia had not conducted OCI
                  reviews on any of the 10 WFO projects we selected for review. In
                  a discussion with a Sandia WFO official regarding the lack of an
                  OCI review, we were told that the Department of Energy
                  (Department) did not require Sandia to conduct an OCI review on



Page 3                                                           Details of Finding
         Non-Federal Entities, such as LMC.1 This official also said that
         Sandia completed a Fairness of Opportunity Determination for
         each WFO project, which they felt took the place of an OCI
         review.

         During the course of our inspection, Sandia Site Office officials
         told us that they had not officially addressed the need for an OCI
         review on WFO projects with LMC and had not provided Sandia
         with the appropriate criteria and direction. However, in comments
         to a draft of this report, the Sandia Site Office stated that, after re-
         examining the contract and the OCI Mitigation Plan, Sandia is
         required by virtue of its contract and its NNSA-approved OCI
         Management Plan to ensure it is free from organizational conflicts,
         including but not limited to WFO. The Sandia Site Office stated
         that while the Department directives governing WFO may not have
         explicitly required an OCI review, the other terms and conditions
         of the Prime Contract and OCI Management Plan clearly require
         Sandia to remain free from conflicts of interest. Therefore, the
         Sandia Site Office took the position that a review of the Non-
         Federal Entities agreements with LMC would be necessary to
         ensure the OCI requirements were being met.

         In comments to a draft of this report, Sandia modified its position
         on the Fairness of Opportunity Determination stating that it was
         not a substitute for an OCI review. Rather, Sandia stated that it
         utilizes the Fairness of Opportunity Determination as an important
         element to mitigate OCI, along with additional elements such as
         rigorous training for staff and use of the OCI Subject Matter
         Expert. However, NNSA stated in its comments on the draft that
         there appears to be a reliance on the Fairness of Opportunity
         Determination and employees' personal knowledge in which to
         base their OCI determinations. Management elaborated that there
         is a lack of formality in documenting the evaluation Sandia
         purports to do, including but not limited to a holistic evaluation of
         how Sandia concludes it is free from OCI.

         Sandia Site Office officials said that, as a result of our inspection,
         Sandia had taken the initiative on their own to establish an internal
         process that would be implemented immediately. This process
         directs the WFO staff to conduct an OCI review on all future WFO
         projects initiated with LMC prior to sending them to NNSA for
         review and approval.



         1
          Non-Federal Entities are entities such as private industry, state and local
         governments, Non-profit Organizations, and Academia.


Page 4                                                             Details of Finding
Cooperative   We determined that Sandia had not performed adequate OCI
Agreements    reviews on CRADAs with LMC to identify actual or potential OCI
              issues. During our evaluation of the 10 CRADA projects that were
              selected for review, we learned that Principal Investigators (PIs)
              assigned to CRADA projects certified that an OCI review had been
              conducted.2 This certification was part of the CRADA
              documentation forwarded to NNSA for review and approval and
              was contained in the Supplemental Joint Work Statement in the
              form of a question that asked:

                  ''Are there any organizational or personal conflict of
                  interest issues associated with this Project Task
                  Statement3 (PTS)?''

              Following this question were two boxes to be checked by the PIs
              indicating their response to the question, one labeled ''yes'' and one
              labeled ''no.'' However, a review of the OCI determinations
              completed by the PIs revealed that their responses were
              consistently "no." In an effort to understand how they arrived at
              their OCI determination, we requested additional information such
              as a narrative describing their review or any other supporting
              documentation for their response. The PIs told us that there were
              no supporting documents for their response to the OCI question.

              During interviews with a sample of eight PIs we selected, we
              determined that none of them had taken the Sandia OCI training,
              and the majority did not fully understand the OCI question that
              was in the CRADA Supplemental Joint Work Statement.
              Specifically, when asked if they understood the difference between
              a personal conflict of interest and an organizational conflict of
              interest, many of the PIs stated that they probably did not.

              The PIs raised a concern about the manner in which the conflict of
              interest question was formatted. They pointed out that the question
              contained both an organizational conflict of interest portion and a
              personal conflict of interest portion, which they felt was confusing.
              In addition, the PIs said that since they were more familiar with the
              subject of a personal conflict of interest, they may have been more
              focused on that portion of the question when they completed the
              OCI determination. The PIs and their Managers proposed that the
              OCI question be modified to separate the two conflict of interest

              2
                Members of the technical staff in the line organizations are given the title of
              Principal Investigator when they are assigned as the technical lead on a CRADA
              project.
              3
                Project Task Statement (PTS) identifies an individual project under an
              Umbrella CRADA that exists at Sandia for all LMC CRADA projects.


Page 5                                                                 Details of Finding
            subjects into two distinct questions. In addition, they asked to be
            provided with some type of protocol or guidance that they would
            be able to use as support when they completed the OCI
            determination on future CRADA projects.

            The Organization Conflict of Interest question is part of the
            Supplemental Joint Work Statement identified in DOE Manual
            483.1-1. The manual states that the Joint Work Statement format
            may be supplemented by the local field office, an action that the
            Sandia Site Office may wish to take to clarify the difference
            between an OCI and a Personal Conflict of Interest.

Contracts   Our review concluded that Sandia had not notified NNSA or
            completed OCI reviews when contracts were initiated with LMC,
            when LMC acquired Sandia subcontractors or when the period of
            performance and dollar amount of a sole-source contract with
            LMC materially exceeded the original award. Procurement
            personnel, such as Sandia Contracting Representatives and their
            Managers, had not taken the formal OCI training as required in the
            OCI Management Plan. This lack of training is of particular
            concern since the Sandia OCI Management Plan identifies
            procurement as a potential area of OCI interest. Sandia
            Procurement Guidelines require that potential or actual OCI issues
            be identified prior to award.

                                    Contracts with LMC

            Sandia had not conducted an OCI review on five of the six
            contracts that we reviewed and did not forward these contracts to
            NNSA for review and approval prior to award. Sandia
            Procurement Guidelines, which are part of Sandia's NNSA
            approved procurement system, require OCI evaluations on
            procurements of over $100,000 with LMC and state that the OCI
            determinations must be reviewed and evaluated by NNSA.
            Consistent with this requirement, NNSA officials stated that their
            expectation was for Sandia to conduct an OCI review on contracts
            awarded to LMC and to obtain the appropriate NNSA review and
            approval.

            Further, NNSA officials were not aware of this condition prior to
            our inspection and stated that Sandia's failure to conduct an OCI
            review and obtain NNSA approval prior to awarding the contracts
            caused them concern. NNSA officials indicated that this condition
            calls into question Sandia's ability to provide the necessary
            assurances that they are performing objectively and without bias,
            preventing LMC and its affiliates from receiving an unfair
            competitive advantage.

Page 6                                                      Details of Finding
                         Subcontractors Acquired by LMC

         Sandia also did not notify NNSA when LMC acquired Sandia
         subcontractors during the performance of ongoing subcontract
         work and did not perform the required OCI reviews. Under the
         Sandia prime contract and procurement guidelines, NNSA is
         required to be notified and an OCI determination made in instances
         where facts disclosed prior to the award of a contract are changed,
         such as acquiring Sandia subcontractors. During our review, we
         found that LMC acquired two Sandia subcontractors during the
         performance of ongoing subcontract work, establishing these
         subcontractors as LMC affiliates. However, Sandia did not notify
         NNSA as required, and did not ensure an OCI determination was
         performed.

                          Sole-Source Contract with LMC

         Sandia did not notify NNSA when revisions were made to a LMC
         sole-source contract after award, and did not conduct an OCI
         review or re-evaluate the sole-source justification. Specifically,
         Sandia extended the period of performance and increased the
         dollar amount of a contract without notifying NNSA of these
         changes and did not perform an OCI review. The original contract
         was awarded in March 2002, with a ceiling of $100,000 and a
         period of performance that ended on June 30, 2002. LMC was
         identified as the only known source to provide the necessary
         services and the contract was issued on a non-competitive basis.

         Sandia Procurement Guidelines exempt procurements with a total
         value of $100,000 or less from an OCI review. We were told by
         the Sandia Site Office that when the period of performance
         increases and the dollar amount exceeds $100,000, Sandia is then
         required to conduct an OCI review and obtain NNSA review and
         approval. However, we found that the Sandia Contracting
         Representative extended the period of performance to eight years
         and increased the dollar amount to $2 million without Sandia
         management review or NNSA review and approval. During a
         discussion with the Sandia Contracting Representative, we were
         told that the contract was extended to meet the continuing and
         growing needs of Sandia. We were also told that the Sandia
         Contracting Representative's interpretation was that NNSA did not




Page 7                                                  Details of Finding
              need to review the extensions of time or the increase in the dollar
              amount since none of the fundamental facts of the procurement
              were changed.

              In discussions with NNSA regarding this contract, we were told
              that their expectation was that Sandia would have obtained the
              necessary NNSA approval when the terms of the contract exceeded
              the $100,000 approved ceiling. In addition, NNSA officials agreed
              that, as the contract progressed and the dollar amount significantly
              increased, Sandia should have conducted an OCI review to
              determine if LMC was being given an unfair competitive
              advantage. Also, NNSA officials indicated that as the period of
              performance expanded, Sandia should have considered testing the
              market to determine if there were other companies who could have
              done the same work, allowing for effective competition.

              In comments to a draft of this report, Sandia stated that their
              NNSA-approved procurement policy did not require Sandia to
              perform an OCI review on (1) contracts under $100,000; (2)
              contracts for routine information technology services; (3)
              maintenance contracts; and, (4) contracts to contractors which are
              acquired by LMC after contract award. As such, Sandia stated that
              the five contracts cited in this report were not required to be
              reviewed for OCI per the exemptions above. However, NNSA
              noted, in its comments on the draft report, that all subcontracts
              with LMC should have been reviewed for OCI notwithstanding
              any exemption criteria established for other organizations or
              services being procured.

RELEASE OF    We found that Sandia personnel who work directly with LMC
INFORMATION   on WFO projects and CRADAs were not aware of the process for
              Release of Information to LMC. Pursuant to the management and
              operating contract, NNSA required Sandia to develop an
              Organizational Conflicts of Interest (OCI) Management Plan
              which outlines, in part, how Sandia will implement its OCI
              Program to ensure that Sandia operates free from actual, potential
              or the appearance of a conflict of interest. Additional OCI
              Program requirements are found in Sandia's Procurement
              Operating Instructions and other topical manuals. As part of the
              OCI process, Sandia maintains an OCI Awareness Program
              administered by the Corporate Contracts and Policy Management
              Department. Under this program, Sandia created a formal process
              for Release of Information to LMC as an essential tool to provide
              the assurance that it was operating in an OCI free manner.




Page 8                                                        Details of Finding
         However, we found that the majority of the PIs and more than half
         of their Managers were not aware of the process for Release of
         Information to LMC. This process utilizes an OCI Form SF 1901,
         Visit/Information Release Review and Approval, and is used when
         there are planned communications between Sandia and LMC that
         involve substantive releases of information, other than agreed upon
         communication included in a WFO or CRADA agreement. The
         SF 1901, once approved by the requestor's senior management, is
         to be submitted to the Sandia Corporate Contract Management
         Department for review and approval prior to any release of
         information.

         The SF 1901 provides for the advanced approval of a proposed
         visit or information release to LMC, or an affiliate, by the OCI
         reviewer. This approval ensures that the proposed information
         release has been evaluated by management and is determined to be
         appropriate. In addition, the SF 1901 documents the approval to
         release information, conduct meetings and have discussions with
         LMC and their affiliate organizations in the event of an audit
         regarding OCI procedures. The lack of knowledge of this process
         on the part of Technical Line Organization personnel raises a
         concern that information may have been provided to LMC that
         could have been identified as a potential OCI issue.

         In discussions with Corporate Contracts and Policy Management
         Department officials, we were told that Sandia, as part of its OCI
         Awareness Program, created this formal process for Release of
         Information to LMC as an essential tool to provide the assurances
         that it was operating in an OCI free manner. When told that the
         Technical Line Organization personnel were not aware of this
         process, Sandia officials stated that they would immediately
         address this issue to ensure that all personnel at Sandia become
         aware of the process for release of information to LMC. They also
         said that all personnel would be provided with resources that
         would assist them in identifying a potential or actual conflict of
         interest in connection with Sandia activities. In addition, in
         comments to a draft of this report, Sandia stated that, based on this
         inspection, a strategy was deployed to raise awareness of the
         Release of Information requirement to have substantive technical
         interactions with LMC documented and approved by Senior
         Management by means of the SF 1901 form.

         We were also told by the Director of the LMC Corporate Relations
         Department that, as a result of our inspection, Sandia was
         developing a website on their internal network to address this
         issue. We were told that the website would provide members of



Page 9                                                    Details of Finding
               the workforce with information relating to LMC relations with
               Sandia. Specifically, information on the website would include:
               exploring and developing agreements with LMC; detailed
               guidance on OCI; guidance regarding NNSA requirements for
               collaborating with LMC; LMC partnering objectives; and, links to
               helpful documents and Subject Matter Experts at Sandia and other
               organizations. In comments to a draft of this report, Sandia
               indicated that the website was implemented in Fall 2010 and has a
               section dedicated to describing OCI issues and concerns pertaining
               specifically to Sandia/LMC interactions. Sandia stated that the
               website explains in detail the contractual and internal controls,
               including training, mitigation plans, use of the SF 1901, new
               business opportunity screening for OCI, and other measures in
               place to help Sandia operate in an OCI-free manner as a LMC
               affiliate.

CONTRIBUTING   These weaknesses occurred, in part, because NNSA had not
FACTORS        conducted periodic assessments of the OCI Program to ensure that
               Sandia had satisfied its OCI responsibilities. Also, Sandia failed to
               provide adequate direction on the implementation of the OCI
               process in the areas of License Agreements, WFO's, CRADAs and
               Release of Information to LMC. Further, Sandia had not provided
               all essential personnel with the necessary OCI training to assist
               them in identifying and mitigating OCI issues or concerns when
               encountered. We noted that no specific performance measures
               related to Sandia's OCI Program had been established by NNSA.

               Technical Line Organization personnel who had the potential to
               interact with LMC and their affiliates on a daily basis, and who
               worked directly with LMC on CRADA projects, had not been
               provided OCI training. Also, procurement personnel, such as
               Sandia Contracting Representatives and their Managers, had not
               taken formal OCI training. The OCI Management Plan and
               associated documents state that early detection of potential OCI
               issues enables a resolution prior to acceptance of work, and that
               potential OCI issues should be identified and resolved by the
               employees themselves at the lowest organizational level.
               However, Sandia did not require all essential personnel to take
               OCI training. Instead, Sandia developed a Target Audience
               concept which only identified personnel from selected groups to
               participate in the training.

               Because the required OCI reviews were not performed for the
               items we tested, we were unable, and responsible
               Department/NNSA Federal officials could not discern, whether
               actual conflicts of interest existed. Without such determinations,



Page 10                                                        Details of Finding
                  the Department could not, in our judgment, satisfactorily determine
                  if LMC was given an unfair competitive advantage or proprietary
                  data and technology was appropriately protected.

                  In comments to a draft of this report, Sandia stated that
                  procurement personnel, including Sandia Contracting
                  Representatives and their managers, are implementing the
                  requirement to complete OCI training. In addition, Sandia
                  described a two track training process. The first track included
                  training of all personnel in functions pertaining to business
                  development in both line and support programs that traditionally
                  involve potential OCI risks. The second track described an OCI
                  Awareness approach designed for and available to all Sandia
                  personnel, but particularly emphasized for those technical
                  personnel whose job functions could potentially involve OCI risks.

RECOMMENDATIONS   Due to the process and procedural weaknesses identified in the
                  Sandia OCI Program, and the questions raised with regard to the
                  assurance that LMC was not given an unfair competitive advantage
                  or that proprietary data and technology was appropriately
                  protected, we recommend the Manager, Sandia Site Office, ensure
                  that Sandia:

                    1. Develops processes and procedures to conduct OCI reviews
                       on Technology Transfer License Agreements with LMC
                       consistent with direction from NNSA, and ensures that these
                       Agreements are submitted to NNSA for review and
                       approval;

                    2. Develops processes and procedures to ensure that OCI
                       reviews are conducted on all WFO projects between LMC
                       and Sandia;

                    3. Improves the adequacy of OCI reviews on all CRADAs
                       between LMC and Sandia by providing guidance to assist
                       PIs in the completion of the OCI determination on future
                       CRADA projects;

                    4. Consistent with NNSA review and direction on the present
                       format of the OCI question contained in the Supplemental
                       Joint Work Statement, modifies the OCI question to clarify
                       the difference between an OCI and a Personal Conflict of
                       Interest;

                    5. Conducts OCI reviews and notifies NNSA when contracts
                       are initiated with LMC, when LMC acquires Sandia



Page 11                                                        Recommendations
                       subcontractors, and when changes occur to a contract after
                       award;

                   6. Provides Sandia personnel who work directly with LMC on
                      CRADA and WFO projects with the appropriate procedures
                      for Release of Information to LMC; and,

                   7. Provides all essential personnel with the necessary OCI
                      training to assist them in identifying and mitigating OCI
                      issues or concerns.

                 In addition, to ensure adequate Federal monitoring of Sandia's OCI
                 Program, we recommend that the Manager, Sandia Site Office:

                   8. Review the Sandia OCI Program, to include the OCI
                      Management Plan and the Sandia Procurement Guidelines,
                      to ensure that all Site Office expectations are clearly
                      communicated; and,

                   9. Conduct periodic assessments of Technology Transfer
                      License Agreements, WFO projects, CRADAs, and
                      Contracts awarded to LMC to verify that the OCI processes
                      and procedures implemented by Sandia are effective.

MANAGEMENT AND   NNSA management generally agreed with the report and the
INSPECTOR        recommendations, and indicated that Sandia had already initiated
COMMENTS         improvement efforts in several areas to strengthen its OCI
                 Program. Specifically, NNSA management identified a series of
                 comprehensive actions it plans to take to ensure the integrity of
                 Sandia's OCI Program, to include specific actions they will direct
                 Sandia to take. In addition, Sandia stated that it is in agreement
                 with the overall conclusions of the report, and that the conclusions
                 are reflected in the recommendations.

                 However, Sandia stated that the overall message of the report
                 paints an incomplete picture of the broad OCI Program that will
                 mislead the reader. Sandia stated that the report fails to address the
                 full scope of Sandia's overall OCI Program, omitting any
                 discussion of many of the essential elements that create Sandia's
                 well implemented program. In particular, Sandia stated that it
                 conducted extensive OCI screenings of LMC business
                 opportunities in which Sandia may also be involved. Sandia went
                 on to state that the broad, absolute assertions in the report based on
                 a portion of the overall OCI Program negatively implicate the
                 quality of Sandia's OCI Program in its entirety. Sandia stated that




Page 12                                   Management and Inspector Comments
          this negative implication is factually inaccurate and causes the
          report to be fundamentally flawed.

          We take exception to Sandia's position that the report is factually
          inaccurate and fundamentally flawed. Specifically, the scope of
          the inspection looked at four critical areas where potential OCI
          issues could exist with LMC: Technology Transfer License
          Agreements; WFO's; CRADAs; and, Contracts. We also reviewed
          Sandia's OCI Training and Release of Information processes. We
          did not conduct a comprehensive review of what Sandia refers to
          as extensive OCI screenings of LMC business opportunities nor
          did we focus on the Sandia Subject Matter Expert process. As
          such, we offer no comment on the effectiveness of those activities.

          Contrary to Sandia's statement that the report did not address
          training material and web-based information, our report
          specifically addresses training and web-based information. We
          noted that Sandia developed a website on their internal network to
          address the training issues discussed in the report. We also
          reported the fact that the website would provide members of the
          workforce with information relating to LMC relations with Sandia.

          In addition, the report addresses the fact that Sandia described a
          two track training process. The report discusses: the first track,
          which includes training of all personnel in functions pertaining to
          business development in both line and support programs that
          traditionally involve potential OCI risks; and, the second track
          which was described as an OCI Awareness approach designed for
          and available to all Sandia personnel, but particularly emphasized
          for those technical personnel whose job functions could potentially
          involve OCI risks.

          Contrary to Sandia's statement that the report did not address
          Executive Level Approval, we specifically note that, based on this
          inspection, Sandia stated that a strategy was deployed to raise
          awareness of the Release of Information requirement to have
          substantive technical interactions with LMC documented and
          approved by Senior Management by means of the SF 1901.

          We consider management's comments and corrective actions
          planned and/or taken responsive to our recommendations.

          Management's comments have been provided in their entirety in
          Appendix 2.




Page 13                           Management and Inspector Comments
Appendix 1

OBJECTIVE     In response to a request from the National Nuclear Security
              Administration (NNSA), we initiated this inspection to determine
              whether the Organizational Conflict of Interest (OCI) Program at
              Sandia National Laboratories (Sandia) complied with contractual
              requirements.

SCOPE AND     We conducted our fieldwork from February through October 2010.
METHODOLOGY   We interviewed Sandia and NNSA Site Office officials. In
              addition, we reviewed and analyzed the NNSA Management &
              Operating contract with Sandia Corporation, and the following
              laws, regulations and policies:

                    FAR 35.017, Federally Funded Research and Development
                     Centers.

                    DEAR 952.209-72, Organizational Conflicts of Interest,
                     and DEAR 970.5227-3, Conflict of Interest-Technology
                     Transfer.

                    DOE O 481.1C, Work For Other (Non-Department of
                     Energy funded work), and DOE O 483.1, DOE Cooperative
                     Research and Development Agreements.

                    DOE Acquisition Guide, Chapter 9.1, Conflict of Interest.

                    48 CFR 970.09, Contractor Qualifications.

              We also reviewed and analyzed the Sandia OCI Management Plan,
              Sandia Procurement Guidelines, and the following Sandia
              documents:
                    Sandia Corporate Procedure ME 100.3.5, Manage
                     Organizational Conflicts of Interest.

                    Sandia Corporate Conflicts of Interest Program Guide, How
                     to Identify, Avoid, Neutralize, and Mitigate OCI.

                    Sandia Corporate Process Requirement No. CPR 200.3,
                     Conflicts of Interest.
              During the inspection, we assessed the contractor's compliance
              with the Government Performance and Results Act of 1993 and
              found that no specific performance measures related to the OCI
              Program had been established at Sandia.

              This inspection was conducted in accordance with the Council of
              the Inspectors General on Integrity and Efficiency, Quality


Page 14                                   Objective, Scope and Methodology
Appendix 1 (continued)

                    Standards for Inspections, issued by the President's Council on
                    Integrity and Efficiency, January 2005. Since our inspection was
                    focused on particular aspects of the OCI program, it may not have
                    identified all internal control issues that may have existed.
                    NNSA management waived an exit conference on July 7, 2011.




Page 15                                         Objective, Scope and Methodology
Appendix 2




Page 16      Management Comments
Appendix 2 (continued)




Page 17                  Management Comments
Appendix 2 (continued)




Page 18                  Management Comments
Appendix 2 (continued)




Page 19                  Management Comments
Appendix 2 (continued)




Page 20                  Management Comments
Appendix 2 (continued)




Page 21                  Management Comments
Appendix 2 (continued)




Page 22                  Management Comments
Appendix 2 (continued)




Page 23                  Management Comments
Appendix 2 (continued)




Page 24                  Management Comments
                                                                    IG Report No. DOE/IG-0853

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
